No.
IN THE SUPREME COURT OF THE UNITED
STATES
—0O0—

YI TAI SHAO, AKA Linda Shao
Petitioner - Appellant,
vs.
Tsan-Kuen Wang
Respondent- Appellee

filed"
NOV 11 2019

—0O0——

On Petition For A Writ Of Certiorari To the
California Sixth District Court of Appeal regarding
its Opinion on J une 4, 2019 in H040977 affirming
Superior Court of California, Santa Clara County
J udge Theodore Zayner’s Order of March 14, 2014
made without a hearing on the Remittitur dated
January 27, 2012 in H035194, an appeal from
J udge Edward Davila’s Order of September 2009
(S256743 denied review on August 14, 2019)
PETITION FOR WRIT OF CERTIORARI
YI TAI SHAO, ESQ. In pro per
SHAO LAW FIRM, PC
4900 Hopyard Road, Ste. 100
Pleasanton, CA 94588-7101
Telephone: (408) 873-3888
FAX: (408) 418-4070
Email: attomeyshao@aol.com

RECEIVED
NOV 1 8 2019

gasgassfiff

QUESTIONS PRESENTED
The questions presented in this case are:
1. Does due process require reversal of California
Sixth District Court of Appeal’ s Judgment of
June 4, 2019 [hereinafter “June 4 2019’s
Judgment”] when the named Justice writing the
Judgment does not exist?
2. Does due process require reversal of June 4
2019’s Judgment as the Presiding Justice Mary
J. Greenwood failed to disclose her conflicts in
interest (She was discovered to be the wife of
Judge Edward Davila who was the trial court
judge for this appeal in 2009 when issues
involved include judiciary corruptions)?
3. Does due process require reversal of June 4
2019’s Judgment as the Sixth District Court of
Appeal knowingly caused the records on appeal
to be incomplete in missing material records
filed by SHAO about Remittitur when the
Remittitur Opinion of March 14, 2014 of Judge
Theodore Zayner was made based entirely on
written submission without trial except a
hearing for the sole purpose to check on the
submission status despite the missing records
were named in the Notice of Designation of
records?

11

4. Does due process require reversal of June 4
2019’s Judgment as it issued an illegal 10-day
oral argument waiver notice (App.55) and
disallowed oral argument when Petitioner
requested that on the 11th day (App.53)?
5. Should June 4 2019’s Judgment (App.58-81) be
reversed as the Sixth District Appellate Court
fraudulently referenced two material records
filed by SHAO to pretend they had reviewed
and falsely stated that they had reviewed the
entire records (e.g.,App.74,L. 14) but these
filings are not in the Records on Appeal as the
Court specifically excluded these records from
the records on appeal and denied SHAO’s
motion to “augment” these records that were
identified in the Notice of Designation of
Records?
6. Should the June 4 2019’s Judgment be reversed
for omitting from discussion all major issues'of
the appeal requested by Petitioner such as the
child support order in the stipulated judgment of
May 2008 was illegal for being well below the
guideline support without participation of the
child support agency in violation of California
public policy codified in California Family
Code §4065(c), the court’s failure to refund

Ill

SHAO’s $10,000 undertaking since January
2012 and the bias and prejudice of Judge
Zayner, Santa Clara County Court and the Sixth
District Court of Appeal by blindly twisting the
facts that legal authorities were indeed provided
in the Opening Brief (E.g., OB, P.9 and P.22 for
the legal authorities to change venue)?
7. Does due process require judges who are
members of the American Inns of Court to
disclose their social relationship with the
interested third parties to the underlying family
case who are members of the same chapter of
the American Inns of Court and is an attorney
for at least a Justice at the appellate court and
for a Justice at California Supreme Court?
8. Does due process require removal of SHAO’s
appeals from the Sixth District Court of Appeal
to a neutral venue where that court has failed to
disclose its conflicts of interest, has had actual
prejudice against SHAO in knowingly allowing
the records on appeal to be incomplete after
being repeated requested for 6 months in
SHAO’s seeking extension of filing Opening
Brief, after the court had illegally allowed the
trial court to delay preparing the records on
appeal for 3 years in violation of California

IV

Rules of Court Rules of Court Rule
8.122(D)(2), 8.124(g) and 8.130(f)(1)
(App.l 1&12), had a history of illegal dismissal
of this appeal on March 14, 2016
(App.l 20;Declaration of Meera
Fox,^|31;App.85) and had caused a false docket
entry of Feb. 27, 2017(App.86&121
Declaration of Meera Fox,|31); with a
fraudulent notice purportedly from the
Appellate Unit of Santa Clara County Court,
and has dismissed or denied all SHAO’s
appeals including systematically dismissed all
appeals in 2018 in the same scheme of avoiding
giving notice to SHAO (H040395, H042531)?
9. Does due process require the Appellate Court to
disclose their attorney-client relationships, long
term regular social relationship and colleague
relationships with the interested third persons
James McManis, Michael Reedy and McManis
Faulkner and apply neutral standards to their
resolution?
10.Does due process require SHAO’s family court
case be changed venue from Santa Clara
County Superior Court, as the Court has had
undisclosed conflicts of interest, has had
systematically blocked SHAO’s fundamental

right to access the court in an illegal way, had
conspired with ex-Presiding Justice Conrad
Rushing to dismiss two appeals (H040395 and
H040977) on March 14, 2016 with false notices
of March 12, 2016. being generated on Saturday
by its Appellate Unit, had systematically altered
the court’s records and docket, disallowed
SHAO to file motions with the Court on her
existing divorce cases with a fraudulent and
void prefiling vexatious litigant order (without
supported by any opinion and was delayed entry
into the docket until August 15, 2017, two years
later), had blocked SHAO from accessing the
docket of her family court case of
105FL126882 for many months, conspired with
the Sixth District Court of appeal in causing a
false docket entry on Feb. 27, 2017 in H040395
and H040977 and dismissed the child custody
appeal of H040395 based on such fraudulent,
non-existence notices dated 2/27/2017, and
repeatedly refused to decide on the merits of
Shao’s motions to change venue?
11. Does due process require the trial court to hold
an evidentiary hearing on a Remittitur that is
asking the court to determine how much was

VI

owed, when the trial court initially set up a trial
but later cancelled it?
12. Shall Certiorari to be issued to safeguard
Petitioner’s fundamental right to appeal and
access the court, to require the California
State Courts to comply with Rule 8-— in
producing all material documents as records
on appeal and to cease issuing the illegal oral
argument waiver notice?
13. Does due process require recusal of Chief
Justice Tani Cantil Sakayue of California
Supreme Com! who had undisclosed conflicts
of interest because of dose regular sodal
relationship with the interested third parties
James McManis, Michael Reedy, Judge
Theodore Zayner, Judge Patrida Lucas?
14. Does due process require the Court to reverse
the judgment to change venue of the trial
court on the issue that SHAO should be paid
her property rights of the child support in
arrears differences between what Wang
actually paid and the guidelines from May 9,
2009 to December 2013 when such support
was terminated by Santa Clara County Court
when the All purpose judge was Judge
Theodore Zayner, and the child support

Vll

should have owed SHAO but for the judiciary
corruption when below child support
payment is against California public policy?
15. Does due process require Santa Clara County
*
Court to refund to SHAO the undertaking of
$10,000 paid to perfect the appeal of
H035194 that was finalized in or about
January 2012?

vm

PARTIES TO THE PROCEEDING
Petitioner is Yi Tai Shao, aka Linda Shao
[“Shao”], an attorney licensed to practice law in
the State of California since 1996.
Respondent is Tsan-Kuen Wang, an engineer
manager at Intel.
Intel is a client to James McManis, Michael
Reedy and McManis Faulkner, LLP.
Interested third parties are James McManis,
Michael Reedy and McManis Faulkner, LLC
who had vital interest in seeing Shao lose on
her family law related cases in order to dismiss
SHAO’s complaint against them.

IX

Table of Contents
QUESTIONS PRESENTED............
PARTIES TO THE PROCEEDING .
petition for writ of certiorari............
OPINION BELOW...... ......................
JURISDICTION................................
STATUTES INVOLVED (App.1-26)
STATEMENT OF THE CASE.........
A.

Severe structural errors constituting

violation of due process................................ 12
B.

Background information....... ..... .......... 17
a. Davila’s parental deprival order was
with ex parte communications from
Sussman ............... ........... .................... . 18
b. Suspected ex parte communication
between Zayner and Sussman................ 18
c. Remittitur was delayed and trial
cancelled ........................... .... ....... ..... 21
d. McManis became SHAO’s attorney but
betrayed SHAO....................................... 21
e. Additional prejudice of Zayner........ 23
f. The Sixth District severely prejudiced
SHAO’s rights to appeal......................... 32
g. File alterations were done as a
conspiracy between the hacker, James

1
•••

vm
1
6

10
10
12

X

McManis, Santa Clara County Court and
Sixth District Appellate Court................ 33
h. repeated dismissal of appeals in
violation of due process by ex-Presiding
Judge Conrad Rushing in violation of Rule
8.57 (requiring noticed motion before
35
dismissal)
i. Joint conspiracies of California courts to
block SHAO’s appeal by deterring records
on appeal................ ........... .................... 36
j. All three levels of California courts as
well as this Supreme Court avoid deciding
on the merits of recusal requests
36
REASONS FOR GRANTING CERTIORARI: Rule 10
(b) and (c)
36
A.

EXCEPTIONAL CIRCUMSTANES OF

EGREGIOUS DUE PROCESS VIOLATION. 37
1. No qualified Justice and lack of fair
tribunal mandates reversal of June 4, 2019’s
Judgment............................. ................... 37
2. Justices, Judges that are or were
represented by the interested third parties
should be required to disclose such
relationship and should all be disqualified
and the case should be removed away from

XI

Santa Clara County Court and Sixth District
38
Court of Appeal
3. Judges who are members of the William
A. Ingram American Inn of Court Should be
Required as a matter of due process to
disclose their social relationship with
lawyers who are members of the Inns of
Court and Who are Appearing Before These
41
Judges
4. Writ is necessary as there is important novel
issue of whether the entire court should be
disqualified when Presiding Judge or Justice or
any Justices/Judges were involved with conflicts
of interest and may extend applicability of
.....44
recusal to appellate court.
5. Incomplete records on appeal constitute
structural error in violation of due process that
mandates reversal of the Judgment.....................
6. Certiorari should be issued to direct the
Sixth Appellate Court to cease its illegal
practice in issuing the 10-day oral argument
waiver notice..................... ........ ........ 48
7. Significant substantive due process
property rights are prejudiced that require a
49
writ be issued
CONCLUSION

46

50

Xll

VERIFICATION

TABLE OF AUTHORITIES
Cases

Addleman, 139Wn.2dat 753-54.
47
Amann v. Caccese (1996) 223 A.D.2d 663,
637 N.Y.S.2d 217
45
Burstein v. Greene (1978) 61 A.D.2d 827,
402 N.Y.S.2d 227............................ ..
46
45
C.C.P. §397(b)........................... .... .
DeGeorge v. Superior Court (1974)
40Cal.App.3d 305, 312.....................
37
Giometti v. Etienne (1934) 219 Cal.687 ..39
Guamieri, 131S. Ct. at 2494; Primus, 436
U.S. at 426................................................... 47
In re Marriage of Comer, 14 Cal .4th at
p.541, 59 Cal.Rptr.2d 155........................ 49
Inquiry Concerning Harris2005) 49 *
Cal.4th CJP Supp. 61................. ............... 43
Knouse v. Nimocks (1937) 8 C.2d 482, 66
P.2d 438........................... ......... ......... ........ 37
Locada v. Deeds (1991s) 498 US 430.
overruled on other grounds by Roe v.
47
Flores-Ortega (20001 528 US 470......

50

Xlll

Milazzo v. Long Is. Light. Co. (1984) 106
A.D.2d 495, 483 N.Y.S.2d 33,............... .... 46
Morton v. Wagner (2007) 156 Cal.App.4th 963,
4
968
obinson v. Robinson. 2017-0hio-450 (Court
of Appeals of Ohio, Fourth Appellate
District, Meigs County, released on
1/31/2017)
47
People v. Pena, 32 Cal.Sh 389(2004). 16, 49
People v. Rogers (2006) 39 Cal.4th 826,
857-858......................................................... 47
Pilla v. American Bar Association (1976)
542 F.2d 56................................ .................. 46
Powell v. Anderson (Min. 2003) 660 N.W.2d
107, 116-119
38
Richard v. Richard, 146 Vt. 286, 288, 501
43
A.2d 1190,1191 (1985)......................
Rothwax v. Spicehandler (1990) 161
A.D.2d 184, 554 N.Y.S.2d 882...........
45
Scott v. Kenyon)1940) 16 C.2d 197, 105
P.2d 291
37
Shalant v. Girardi (2011) 51 Cal.4th 116.29
Shalantv. Girardi (2011) 51 Cal,4th 1164,
1173-74.
4
Smith v. Sikorsky AircrafttC.T). Cal. 1976)
420 F. Supp. 661, 662
38

1

XIV

State v. Putnam (1996) 164Vt. 558
43
Tumevv. Ohio (1927) 273US 510...
37
U.S.'v. Jordan (1995) 49 F.3d 152, Ft. 1845
Wechsler v. Superior Court (2014) 222
Cal.App.4th 384................. ................
42
Williams v. Pennsylvania (2016) 136
S.Ct. 1899................... ............... .... ........ 44
Statutes

28U.S.C. §2101(c)...............
28 USC §1257......................... ..............
28 USCS §455(b)............................. ..... ....
California Family Code §4065(c)..................
California Government Code §6200...............
California Government Code §68150.............
Penal Code Sections §96.5, §182, §115, §132,
§134, §470............................. ........................

10
10
46
li

43
43
44

Rules

Rule 10 (b) and (c)................... ...................... 36
Rule 5-300 of California Rules of Professional
Conduct...................... ..... .......... ................... 41
Rule 8.124(g) of California Rules of Court2,
7

Rule 8.124(g).......

.....................

Rule 8.57(a) of the California Rules of
Court................ ..... ..................................
US Sup. Ct. Rule 13.1 and 13.3...........

27

31
10

XV

Treatises

13 Witkin Cal.Proc.Appeals §917

37

Regulations

Cal. Code Jud. Ethics, canon..
Federal Judiciary Policy 3-3.6

42
46

APP

xvi

Table of Appendix

................. App

APPENDIX No.i: INVOLVED STATUTES...1
1. Constitution, Article IV, §2:....................... 1
2. Constitution, First Amendment:.................. 1
3. Constitution, Fourteen Amendment § 1:........ 1
4. 28 USCS §455 Disqualification of justice,
judge, or magistrate [magistrate judge]:.............. 2
5 Judicial Conference of the United States,
Committee on Code of Conduct for United States
Judges, Compendium of Selected Opinions §
3.6-6[l] (Apr. 2013):.............. ........... .,.............. 4
6. California Government Code §68150:......... 4
7. California Government Code §68151(a)(1)... 9
8. California Government Code §68151 (a)(3).....9
9. California Government Code §68152 (g)(16)... 9
10. California Government Code §68152:....... 9
11 .California Government Code § 68153:....... 10
12. California Rules of Court: Rule 8.122 (d)
Clerk’s transcript............................. ................ 10
13. California Rules of Court: Rule 8.124.
(b)(4) and (g): Appendixes.............................. 12
14. California Rules of Court: Rule 8.130
(e)(1) and (f).................... .... .............. ............ 12
15. California Rules of Court: Rule 8.256.Oral
argument and submission of the cause
13

APP

XVII

16. California Rules of Court: Rule 8.702.
14
Appeals...................................................
16
17. Rule 5-300 Contact With Officials ...
18. California Code of Civil Procedure
17
§3 97(b)................... ................................
§397 Cases in which venue may be changed... 17
19. California Penal Code §96.5
OBSTRUCTION OF JUSTICE........................ 17
20. California Government Code §6200 (willful
destroy, falsify and alter records)...................... 18
21. California Penal Code § 182...................... 18
22. California Penal Code §115.................... 19
23. California PenalCode §132.................... 19
24. California Penal Code §134......................... 20
25. California Penal Code §470 PC Forgery;
Signatures or Seals; Corruption of Records....... 20
26. Guide to Judiciary Policy Vol.2 C: §620.. 20
§620.25
20

§620.30...... ................... ........
§620.35 (b).... ........................ .
§620.45........... .......................
§620.50...................................

21
21
22
22

27. California Code of Judicial Conduct
23
a. CANON 2: A JUDGE SHALL AVOID
IMPROPRIETY AND THE

APP

XVlll

APPEARANCE OF IMPROPRIETY IN
ALL OF THE JUDGE'S ACTIVITIES .... 23
b. CANON 3: A JUDGE SHALL
PERFORM THE DUTIES OF JUDICIAL
OFFICE IMPARTIALLY AND
DILIGENTLY......................................... 24
c. CANON 4 :A JUDGE SHALL SO
CONDUCT THE JUDGE'S
QUASI-JUDICIAL AND
EXTRAJUDICIAL ACTIVITIES AS TO
MINIMIZE THE RISK OF CONFLICT
WITH JUDICIAL OBLIGATIONS........27
28. California Family Code §4065(c)and
(d) 30
APPENDIX No. 2: CA Supreme Court’s ORDER
DENYING REVIEW Filed on 8/14/2019....... 31
APPENDIX No. 3- Rehearing denied BY ca
sIXTH dISTRICT apPELLATE cOURT on
6/25/2019
32
APPENDIX No. 4: NOTICE OF ERRATA FILED
ON 6/25/2019 WHEN REHEARING LATER
IMMEDIATELY DENIED........
33
Exhibit A to Notice of Errata....
39
EXHIBIT B To Notice of Errata
40
EXHIBIT C to Notice of Errata.
42

APP

xix

EXHIBIT D to Notice of Errata: evidence of
direct involvement in this appeal by the
Appellate Unit with the email of
sccappeals@scscourt.org:............................. 44
EXHIBIT E to Notice of Errata: two screenshots
about hacker’s activities.................................... 46
EXHIBIT F to Notice of Errata: another
screenshot of hacker’s activities....................... 48
EXHIBIT G to Notice of Errata about Google’s
hacking into new gmail account without notice . 49
APPENDIX No. 5 The Attachment 01 and 04 to
the Petition for Rehearing that were altered BY
HACKER/COURTS....................................... 53
APPENDIX NO. 6 The SIXTH DISTRICT
APPELLATE COURT’S Illegal Oral argument
waiver notice of May 6, 2019 THAT WAS
BANNED BY CALIFORNIA SUPREME
COURT ABOUT 15 YEARS AGO
57
APPENDIX No.7 H040977 Opinion/Judgment of
June 4, 2019. 60
APPENDIX NO. 8 Docket of H040977
84
APPENDIX No. 9: Declaration of Meera Fox on
Judiciary Conspiracies (Filed WITH THE
SIXTH DISTRICT APPEALLTE COURT on
4/27/2017)
100
EXHIBIT A TO MS. FOX’S DECLARATION 129

APP

xx

EXHIBIT B TO MS. FOX’S DECLARATION 131
EXHIBIT C TO MS. FOX’S DECLARATION 132
EXHIBIT D TO MS. FOX’S DECLARATION 134
EXHIBIT E TO MS. FOX’S DECLARATION 136
EXHIBIT F TO MS. FOX’S DECLARATION 138
EXHIBIT H TO MS. FOX’S DECLARATION 143
APPENDIX No. 10: respondent’s counsel David
Sussman’s admission of illegal night time ex
parte communication on august 4, 2010, the
date WHEN shao was illegally deprived of child
custody by judge edward davila.................... 147
APPENDIX No. I E Orders of Judge Edward
Davila filed on August 5, 2010, without any
hearing, in response to David Sussman’s ex
parte communications.......... !....................... 151
Date- 8/4/2010 Edward J. Davila, Judicial
Officer
153
APPENDIX NO. 12- Temple Bar Scholars
&Reports(American Inns of Court’s website)Financial Conflicts of Interest of the Justices at
the US Supreme Court for sponsoring gift
sohcitation of their clerks at the American Inns
of Court
154
APPENDIX NO. 13: TEMPLE BAR
SCHOLARSHIP webpage pubhshed by
AMERICAN INNS OF COURT: GIFTS

APP

xxi

PROVIDED TO US SUPREME COURT
CLERKS BASED ON THEIR JUDICIARY
POSITION
164
APPENDIX No. 14- McManis Faulkner’s news
RELEASE which shows the close relationship
between James McManis and Chief Justice
John G. Roberts; this news release was purged
from McManis Faulkner’s website in late
January 2018 167
APPENDIX NO. 15: selected portion of the
deposition transcript of james mcmanis on july
20, 2015
169
P.42, Line 16 through P.43, Line 9: admission of
representing Santa Clara County Court.....
169
P.l 10, Lines 2-7: admission of having a client
Justice at California Supreme Court and at
California Sixth District Court of Appeal....... 170
APPENDIX No. 16: SELECTED PORTION of
the deposition transcript of the expert witness of
mcmanis faulkner, lip: carroLl J. collins, iii, esq.
172
'\
P. 120, Line 18 through P.121, Line 1
172
P. 122, Line 1-6................. ........ ......
173
APPENDIX No. 17: Michael reedy was a
speaker for the american inns of court..... 174

APP

XXII

APPENDIX No. 18; Letter to Judge patricia
lucas asking a hearing date for a motion to
change place of trial on shao v. mcmanis, et al.
2012-l-cv-220571 of june 22, 2017
175
APPENDIX No. 19 SHAO’s 2013 application
for her return of $10,000 undertaking that was
ignored by Judge theodore zayner
177

1

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of
Certiorari issue to review the California Sixth
District Court of Appeal’s Judgment of June 4 2019
in the case number of H040977 [“June 4 2019’s
Judgment’! which affirmed Judge Theodore Zayner’s
decision of March 14, 2014 on a Remittitur dated
January 27, 2012 (H035194), from the decision of
Judge Edward Davila of September 2009, in
complete ignoring each and every material issues on
appeal raised by Petitioner, including modification
of child support which caused Petitioner to lose her
property rights of at lease $150,000, ignoring to
refund the undertaking of $10,000 and ignoring the
issues of the courts’ conflicts of interest. The entire
proceedings at the State Courts were made with
structural errors in violation of due process in that:
(1) The J une 4 2019s J udgment was written by a
Justice that is not in existence;
(2) The Judgment was written by a Justice
purportedly acting on behalf of the Presiding
Justice of the Sixth District Court who has
undisclosed conflicts of interest: Presiding Justice
Mary J. Greenwood is the wife of the trial judge
Edward Davila who had committed illegal ex parte

2

communications with Respondent’s counsel, David
Sussman;
(3) Petitioner was illegally blocked from oral
argument by an illegal oral argument waiver notice
which was disallowed by California Supreme Court
since 2004;
(4) Nonconforming records on appeal: after blocking
the records on appeal to be prepared for 3 years in
violation of Rules 8.122, 8,124 and 8.130, when the
records were eventually prepared, the court
knowingly exduded material records filed by
Petitioner from the records on appeal in violation of
Rule 8.124(g) of California Rules of Court and
further misrepresented in the Judgment that the
records were completely reviewed by it (App.74:
‘Moreover, we have reviewed the entire record...);
(5) misleading facts were redted in the June 4
2019’s Judgment that the court had reviewed the entire
file, and that it blindly asserted that no legal authorities
were provided for changing venue, when in fact, it is
impossible to have the court reviewed the entire
records as the court had repeatedly disregard of the
records on appeal being incomplete1, and further
1 As shown in App.76, the Court stated that “the Court provided
Shao multiple extensions to complete her opening brief’, when in
fact, the reason asking for extension has been that the records on

3

denied the records that were already designated to
be “augmented” and legal authorities were provided
in support of changing venue (Opening Brief, P.9
and P.22);
(6) J udge Theodore Zayner canceled the trial to be
held on the Remittitur, with December 16, 2013
such that his decision was made without trial,
(7) In helping his long term buddies Michael Reedy
and J ames McManis, J udge Theodore Zayner
illegally took possession of the original deposition
transcripts of the interested third parties James
McManis and Michael Reedy on June 20, 2016 and
removed them from the court’s files when the trial
judge Honorable Derek Woodhouse was influenced
to stay the jury trial. Zayner was suspected to have
caused a non-derk contractor to enter the docketing,
system of the court to alter the docket of the related
case of Shao v. McManis et al (2012-CV-1-220571)
by entering into the docket of the case on August 15,
2017 the fraudulent prefiling vexatious litigant
order which was never supported by a statement of

appeal were incomplete in missing 3 files and the Court has
delayed adjudication on SHAO’s Objection to the Records on
Appeal filed on October 25, 2018 by more than 6 months.

4

decision2 when it was backdated to show a filing
date of June 16, 2015.
(8) This appeal, together with the child custody
appeal (PWC318-560;H(MG395), was illegally
dismissed on March 14, 2016 with identical false
2 A prefiling vexatious litigant order that is not supported by a
statement of decision is void. See, Morton v. Wagner (2007) 156
Cal.App.4th 963, 968.

On November 8, 2019, SHAO was informed

that this docket entry was created only on August 15, 2017, two years
later.

When the original order declaring vexatious litigant was issued

on June 16, 2015, there was no prefiling order mentioned there, yet,
such decision was immediately misapplied to the family court case on
June 25, 2015 to block SHAO from seeking discovery reopened
(SHAO filed a motion to reopen discovery which should have been
automatically reopened according to the Family Code).

Then this

prefiling vexatious litigant order that was not entered into the docket
showed up. The Presiding Judge Rise Pichon issued an order of May
29, 2016 to require SHAO to seek preapproval of the Presiding Judge
before filing a motion and supported Judge Weinstein’s illegal
forcible taking off SHAO’s 4 motions (including change of venue) on
April 29, 2016.

Such application of a prefiling order to the existing

family case was criticized by California Supreme Court as
“ridiculous”.

See Shalantv. Girardi (20111 51 Cal.4th 1164.

1173-74.
3 PWC refers to the Petition for Writ of Certiorari that was filed
with this Supreme Court.

5

notice of March 12, 2016 generated by Santa Clara
County Court despite March 12, 2016 was a
Saturday.
(9) This appeal, together with the child custody
appeal (18-560;HO4O395) was created a false docket
entry of February 27, 2017 alleging a notice of
default of February 24, 2017 when such notice was
not in existence.
(10) In denying to rule on the issue of conflicts of
interest mentioned in many of Petitioner’s motions
to change venue about the courts’ attomey-dient
relationship, sodal relationship and collegian
relationship with James McManis, Michael Reedy
and McManis Faulkner, LLP, the court wrongfully
denied a statutory compliant motion for judidal
notice with false comment that SHAO did not
provide any authorities.4
(11) When James McManis has unidentified Justice
dient(s) at California Supreme Court (App.171),
Chief Justice Tani Cantil Sakayue, with

4 On October 15,2019, when SHAO was overseas, Santa
Clara County Court further silently dismissed the case of
Shao v. McManis et al to release the court’s own
attorneys from this lawsuit, without changing venue
with knowledge of direct conflicts of interest.

6

undisclosed conflicts of interest (Sakayue was the
President for Justice Anthony M. Kennedy
American Inn of Court, closely related to the
William A. Ingram American Inn of Court where
Michael Reedy is the President and Judge Theodore
Zayner the President Elect), has consistently denied
all appeals filed by Shao, ignored the gross injustice
involved and refused to recuse herself. Her being
Justice Kennedy’s Chapter of Inn of Court’s
President could explain why Justice Kennedy has
consistently denied SHAO’s applications in an
expeditious way and how the Constitution was
completely shed by this Court in disregard of severe
civil rights infringement in all of the Petitions filed
by Shao including imminent danger to the minor
caused by Wang’s severe mental disease.
OPINION BELOW
This appeal lasted totally 10 years regarding J udge
Edward Davila’s 9/25/2009’s Order. The lengthy
delay was contributed to the courts’ deterrence of
SHAO’s right to access the court. On June 4,2019, a
non-existent Justice ‘Danner J.” issued a
non-published opinion in H040977, affirming Judge
Theodore Zayner’s decision made five years ago on
March 14, 2014, with twisted facts stated in the
Opinion including obviously misrepresenting that

7

all records were reviewed when it blocked SHAO’s
material pleadings designated in the notice to be
included in the Records on Appeal, and further
denied SHAO’s motion to "augment” the records
when the trial court knowingly provided
non-conforming records on appeal in violation of
Rule 8.124(g) of California Rules of Court(App. 11).
The com! continued refusing to dedde on the
material issues on appeal, i.e., modification of child
support that involved about $150,000’s property
rights for support in arrears, the court’s refusing to
refund the undertaking of $10,000, the issue of
Wang’s double recovery of costs, and the issues of
the courts’ conflicts of interest.
The only identifiable Justice was "Acting PJ.”
The Presiding J ustice Mary J. Greenwood is the
wife of Judge Edward Davila, the trial judge
involved in the decision of 2009 in this appeal. On
March 16, 2018, Greenwood dismissed two appeals
(H045501 and H045502) simultaneously on March
16, 2018, with identical false ground of lack of Civil
Case Information Sheet for both cases. H045501 is
this family case which is underlying the civil case of
H045502 (Petition for Writ of Certiorari 18-044),
Shao v. McManis, et al. Justices acting for
Presiding Justice Mary J. Greenwood had further

8

dismissed H042531 (PWC18-800) and H040395
(PWC18-569) with the same style of a silent
dismissal by fraudulently blocking notices to SHAO.
SHAO filed Petition for Rehearing and
Suggestion of En Banc on June 19, 2019. Then,
SHAO discovered that the attachments 01-04 to the
Petition for Rehearing were altered in the court’s
records in that the email address of Santa Clara
County Appellate Unit sccappeals@scscoiirt.org. was
removed from AttachmentOl and Attachment04.
The same alteration was made when the hacker
hacked into SHAO’s email that has been hacked by
Kevin L. Wamock. Yet the hacker missed altering
one email notice of June 4, 2019 (App.43).
Therefore, SHAO filed a Notice of Errata about
this alteration of record. Immediately upon such
electronic filing on June 25, 2019, the hacker
altered the file (see the first page attached to the
Petition for Review.) such that SHAO was unable to
print out. As shown in the AttachmentOl to the
Petition for Review, the Court’s e-filing site showed
‘The document could not be saved. The volume for
a file has been externally altered so that the opened
file is no longer valid.”
Based on the doctrine of adverse inference, the
hacker that was able to access the Sixth District

9

Appellate Court’s efiling notice are presumed to
have been working closely with both Santa Clara
County Court and California Sixth District Court of
Appeal to be able to enter into the court’s efiling
notice system to immediate delete Santa Clara
County Court’s Appellate Unit’s email address from
the court’s records. As concurred by Attorney Meera
Fox, who investigated the matters and concluded
existence of judiciary conspiracies between the
Appellate Unit of Santa Clara County Court and
the Sixth Appellate District as led by McManis
Faulkner law firm. (App. 120,Declaration of Meera
Fox,<pi)
Timely review was made in California Supreme
Court on July 5, 2019, which was denied on August
13, 2019.
Chief Justice Cantil Sakayue, Presiding Justice
Mary J. Greenwood, California Supreme Court,
California Sixth District Court of Appeal, Judge
Theodore Zayner, Judge Edward Davila, James
McManis, Michael Reedy, McManis Faulkner,
Justice Conrad Rushing, Appellate Unit supervisor
Susan Walkner and derk Rebecca Delgato are all
named defendants in the case of 19-5014 pending
appeal with the D.C. Circuit.

10

Facts on irregularities involved in this appeal
are stated chronologically in Section A to
‘Statement of the Case.”
JURISDICTION
California Supreme Court’s order was entered
August 13, 2019. Petitioner invokes this Court’s
jurisdiction under 28USC §1257 as the decisions of
the California courts rejected Petitioner’s daims
under the First and Fourteenth Amendments to the
Constitution of the United States. The Petition is
timely under 28 U.S.C. §2101(c) and US Sup. Ct.
Rule 13.1 and 13.3.
STATUTES INVOLVED (APP.1-26)
1. Constitution, Article IV. §2
2. Constitution. First Amendment
3. Constitution, Fourteen Amendment $1
4. 28 USCS $455 Disqualification of justice, judge, or
magistrate [magistrate judge!
5 Judicial Conference of the United States. Committee
on Code of Conduct for United States Judges
Compendium of Selected Opinions $ 3.6-6141 (Apr.
2013)
6. California Government Code $68150
7. California Government Code §6815UaVl)
9. California Government Code §68152 (g¥16)
10. California Government Code §68152

11

11.California Government Code § 68153
12. California Rules of Court: Rule 8.122 (cD Clerk’s
transcript
13 . California Rules of Court: Rule 8.124. (b)(4)
and Is): Appendixes
14. California Rules of Court: Rule 8.130 (e)(1) and

m
15. California Rules of Court: Rule 8.256.Oral
argument and submission of the cause
16. California Rules of Court: Rule 8.702. Appeals
17. Rule 5-300 Contact With Officials
18. California Code of Civil Procedure $397(b)
19. California Penal Code $96.5 OBSTRUCTION
OF JUSTICE
20. California Government Code $6200 (willful
destroy, falsify and alter records!
21. California Penal Code $182
22. California Penal Code $115
23. California Penal Code §132
24. California Penal Code $134
25. California Penal Code $470 PC Forgery;
Signatures or Seals; Corruption of Records
26. Guide to Judiciary Policy Vol.2 C: $620

$620.25
$620.30
$620.35 (b)

12

$620.45
$620.50
27. California Code of Judicial ConductError!
Bookmark not defined.
a. CANON 2: A JUDGE SHALL AVOID
IMPROPRIETY AND THE APPEARANCE OF
IMPROPRIETY IN ALL OF THE JUDGE’S
ACTIVITIES
b. CANON 3: A JUDGE SHALL PERFORM
THE DUTIES OF JUDICIAL OFFICE
IMPARTIALLY AND DILIGENTLY
c. CANON 4 :A JUDGE SHALL SO
CONDUCT THE JUDGE'S QUASI-JUDICIAL
AND EXTRAJUDICIAL ACTIVITIES AS TO
MINIMIZE THE RISK OF CONFLICT WITH
JUDICIAL OBLIGATIONS
28.

California Family Code §4065(c)&(d)
STATEMENT OF THE CASE
A. Severe structural errors constituting
violation of due process
SHAO has been egregiously prejudiced by
California courts’ court crimes in delaying this
appeal by about 10 years:
9/25/2009 Judge Edward Davila conducted the
hearing denying extension requested by SHAO.
Shao appealed (H35194).

13

1/27/2012 Sixth Appellate Court’s opinion was
issued.
9/12/2012 When SHAO was to challenge the
qualification of a fake forensic psychologist John
Orlando who illegally practiced psychology, for the
first time J udge Zayner wanted to handle
Remittitur, by instructing Respondent’s counsel,
David Sussman, in ex parte, to file Case
Management at issue memorandum to divert the
custody issue away.
9/11/2013 J udge Zayner cancelled the trial and
decided to have the Remittitur determined on paper
submission only with a reviewing date of
12/16/2013.
12/16/2013 J udge Zayner denied SHAO’s request
for continuance and trial setting for Remittitur.
The hearing was not a hearing on Remittitur but
only to check the submission status.
4/21/2014 Notice of Appeal was filed5.
3/14/2016 Ex-Presiding Justice Conrad Rushing
dismissed the appeal based on false Saturday notice
of non-compliance of 3/12/2016 in violation of Rule
8.57.(App.l20,Declaration of Meera Fox,^31) The

5 The record of filing, however, was removed from the
docket of the family court case.

14

dismissal(App.85), with evidence of courts’ fraud,
was vacated on 4/12/2016.
2/27/2017 A false docket entry was shown based
on a purported notice of 2/24/2017 (App.84)which
was not in existence.
5/242017 The court required the prior
submission by SHAO of the hearing transcripts to
be signed by the court reporters. (App.86-89)
8/1/2017 The Appellate Unit of Santa Clara County
Coxxrt filed its Records on Appeal
9/62017 The court disputed SHAO’s transcripts
filed on 10/3/2014(App.l33), about 3 years ago to be
certified copies, and eventually accepting re-filing
by SHAO(App.91)
10/302017 SHAO filed Objection to the Records
on Appeal based on missing material records
regarding Remittitur in violation of Rule 8.124
(App.93).
Until 4302018 5 extensions were granted when
SHAO requested extension based on the court’s not
yet ruled on SHAO’s Objection to the Records on
Appeal.
04232018 SHAO filed a motion to reconsider the
court’s denial of extension as the Court had not
ruled on SHAO’s Objection to incomplete Records
on Appeal(App.94).

15

05/03/2018 The court denied SHAO’s motion to
reconsider but instructed SHAO to file a motion to
augment records on appeal .(App.95)
05/04/2018 The court denied SHAO’s Objections to
incomplete records on appeal where SHAO
requested an order to require Santa Clara County
Court to supplement the missing important records
(Opposition to Declaration of Tsan-Kuen Wang and
Objection to evidence)(App.95)
05/08/2018 Per the Court’s instruction, SHAO
filed a motion to augment records on appeal for the
missing records.(App.95)
05/11/2018 The court denied SHAO’s motion to
augment records on appeal to indude her important
filings, the only filings regarding Remittitur.
06/06/2018 SHAO filed her Opening Brief and a
separate Rule-compliant motion for judidal notice
induding a request to change venue. It indudes
Dedaration of Meera Fox about actual bias and
prejudice of the Sixth District Appellate Court with
statement of history of granting judidal notice of
this Dedaration of Meera Fox by California
Supreme Court in S242475 in July 2017.
5/6/2019 A 10-day oral argument waiver notice
was sent via email(App.43). This notice was
dedared to be void and violation of due process 15

16

years ago by California Supreme Court in People v.
Pena, 32Cal.4h 389(2004).
5/17/2019 The court issued an Order to waive
oral argument. Petitioner contested the waiver to
no avail.(App.53)
6/4/2019 A non-existent Justice issued the
Judgment, with concurrence by another
non-existent Justice and a Justice as acting PJ.
6/19/2019 SHAO filed Petition for Rehearing.
6/25/2019 Notice of Errata filed regarding alteration
of court’s records regarding email notices that the
court and hacker that hacked into SHAO’s email
had removed the email address of the Appellate
Unit of Santa Clara County, i.e.,
sccappeals@scscourt.org. from AttachmentOl and
04 that were attached to Petition for Rehearing filed
on 6A9/2019. On the same day when this court
crime was exposed, the Court issued an Order
denying rehearing by Justice Mihara as Acting
Presiding Justice, and purported Justices ‘Danner
J. and Duffy, J.”
Presiding Justice MaiyJ. Greenwood never
made a disclosure on her conflicts of interest.
After blocking the records on appeal to be
prepared by about 3 years, when Santa Clara
County Court’s Appellate Unit involuntarily

17

produced the records on appeal, it fraudulently
omitted from production the material filings of
Petitioner regarding Remittitur, and the Sixth
District Appellate Court further blocked such
missing records to be included in the Records on
Appeal.
As J udge Zayner cancelled the trial and
decided on papers, these two pleadings are all that
are from Petitioner regarding the Remittitur.
Without the two records, Petitioner could not
proceed appeal.
B. Background information
SHAO had 99.7% of child custody and later
stipulated to a 50/50 shared child custody judgment
in 2008with case number of 105FL126882 pending
with Santa Clara County Court. In 2009, SHAO
disputed that WANG failed to comply with the
stipulated judgment in failing to give her her share
of his bonus income and stock option, that the
stipulated child support in May 2008s Judgment
was well below guideline was void in violation of
public policy, that WANG’s counsel, David
Sussman, breached the trust in misusing her Social
Security number to create the trust account without
informing her, failing to distribute the sales

18

proceeds of the house in equal division, further
damaging her credits by mishandling the trust.
Judge Davila conducted the trial in September
2009. SHAO appealed with the case number of
H035194. The Opinion H035194was issued on
Jan.27, 2012.
a. Davila’s parental deprival order was
with ex parte communications from
Sussman
On Aug. 4, 2010, Judge Davila illegally
deprived SHAO of child custody at a case
management conference without any notice nor
evidentiary hearing, with admission of ex parte
communications by Respondent’s counsel David
Sussman (App.144). Shao retained McManis
Faulkner LLP without knowing their relationship
with Santa Clara County Court. Judge Edward
Davila went to the USDC in San J ose, with his seat
succeeded by Judge Theodore Zayner.
b. Suspected ex parte communication
between Zavner and Sussman
The court issued opinion in H034195 on
J anuary 27, 2012; yet, J udge Zayner failed to take
any action, until September 12, 2012 when he
colluded with David Sussman by ex parte
communication instructing Sussman to file the

19

At-Issue Memorandum, which was leaked out of
Sussman’s mouth at the end of the
hearing(9/L2/2012 transcript6,P.16:MR.SUSSMAN:
Thank you, Your Honor. Thanks for your time. By
the wav. I thought your direction last week was
very helpful.” This is different from what
Sussman dedared in his Paragraph 3 as shown in
App.144. A week prior was exactly the time
Sussman filed a case management conference
6 Even though the transcripts were submitted to the trial court to
be lodged with the Appellate court in October 2014, two years
later, the Sixth District Appellate Court required the reporters’
signatures and required Appellate to refile the transcripts,
including this one.

The June 4, 2019’s Judgment contained

conflicting statements. Despite having submitted twice of this
transcript, as shown in App.63, the Court stated “The record on
appeal does not contain a reporter’s transcript of this
hearing.” Yet, in denying change venue, the Court
made inconsistent statement that
“Moreover, we have reviewed the entire record,
including the reporter’s transcripts from the
December 16, 2013 hearing during which
substantive issues relating to the remittitur were
addressed and conclude they do not support her
attacks on the trial court’s fairness and
impartiality.” (App.74)

20

questionnaire, with a typo of “Remitter”.(App.63, as
stated by the Court’s Order in its Page 3, the last
two lines). Contrary to Sussman’s declaration,
there was no hearing for J udge Zayner nor a
hearing to allow Sussman to appear before Zayner
at the time of his filing the case management
conference questionnaire. Yet the court disallowed a
deposition over Sussman to take place.
It should be a more logical inference that
Zayner taught Sussman to use Remittitur to revive
the May 10, 2010’s two discovery motions to counter
SHAO’s discovery of fraud of Orlando. Such
inference is supported by Page 13 of 9A2/2012’s
transcript which reads:
MS. SHAO: Your Honor, the most
important thing is custody.
THE COURT: You mean on the remittitur.
MR. SUSSMAN: On the remittitur, yeah.
Frankly, IVe never run into it before and I
have to think about it.
As Remittitur was not the idea of Sussman, he
would make a typo on his Case Management
Conference Questionnaire of ‘Remitter”.

21

c. Remittitur was delayed and trial
cancelled
Later, J udge Zayner cancelled the trial
setting for Remittitur, but directed Wang to file his
declaration, SHAO to oppose and he would decide
on papers. Zayner issued his Decision, then SHAO
appealed which is H040977.
d. McManis became SHAO’s attorney but
betrayed SHAO
The appeal process of H040977 was
intertwined with the custody appeal. The shared
custody stipulation in 2008was prompted by Judge
Edward Davila’s judidaiy corruption that took
place as early as in June 2007, when he, Sussman
and Sarah Scofield made a play at the Court on the
day of emergency screening to reverse the screening
to be against Shao based on Scofielfs speech who
was not a screener of the family case and did not
meet Shao before, but made frivolous accusation
against SHAO at the Court. (Opening Brief) The
opposing counsel David Sussman later enlisted
Sarah Scofield as Wang’s witness for emergency
screening in May 2010.
On the August 4, 2010’s case management
conference, the same league played again another
conspiracy. Judge Davila ordered parental deprival

22

on the Case Management Conference. Such
parental deprival was ordered over the objections of
two minor’s attorneys and Shao, and in contrary to
the expressed wishes of the 5-year-old minor. They
plotted to lure SHAO to bring in the minor to the
court in that afternoon and locked the 5-year-old in
the court for a good 3 horn's. The ensuing date,
this league based on undisputed ex parte
communications, issued supervised visitation order
and sibling separation order without a hearing.
Davila ordered the minor to be placed under the
sole custody of her identified abuser, Respondent
Tsan-Kuen Wang.
Without knowing the conflicts of interest of
McManis Faulkner, LLP about their relationship
with Santa Clara County Court, SHAO retained
that law firm in August 2010 tiying to get back her
custody. However, on the first day of appearance,
her attorney Michael Reedy was called into the
chamber of Judge Davila and conspired with Judge
Davila and opposing counsel David Sussman, for an
order to issue monetary sanction against SHAO, for
an agreement that Reedy was not to defend SHAO,
and not to file a motion to set aside the parental
deprival ordersof August 4 and 5, 2010.

23

e. Additional prejudice of Zavner
During 4 years’ being this case’s all
purposejudge, Zayner, in apparent knowing Wang’s
mental disorder, willfully cancelled Judge Mary
Ann Grilli’s July 22, 201l’s Order to conduct
psychological evaluation of Wang and refused to set
for trial until July 2013 in front of Judge Patricia
Lucas. At that time, SHAO was unaware that
Zayner, Lucas and Michael Reedy were closely
socialized through the Ingram Inn for more than
10f years where they had at least 14 meetings a
year. J udge’s membership is free and McManis
law firm is a major donor of the Ingram Inn. As
dedared by Meera Fox, Esq., as critical to the
defense ofMcManis law firm against SHAO’s
malpractice lawsuit, McManis misused their
relationship with Santa Clara County Court’s
judges to ensure SHAO’s permanent parental
deprival. (App.100-103)
4 years later, on 9/15/2014, SHAO obtained
discovery from the health insurance company of
WANG that he had been treated with a very
dangerous mental disorder about the time the
minor complained of inhumane physical abuses by
Wang in late July of 2010. Then Santa Clara
County Court suppressed the CIGNA’s subpoenaed

24

documents until June 17, 2016 when Judge Joshua
Weinstein opened the subpoenaed documents
knowing that Dr. J effrey Kline had provided
declaration about severe mental disorder of Wang
but knowingly disregarded it. The CIGNA records
were in the court’s file. SHAO was unaware of the
attorney-client relationship(App.106,165-167,
168-69) between McManis and Santa Clara County
Cotut until 2014.
While the parental deprival order of Davila
was set aside, Judge Grilli illegally ordered to
maintained the already set-aside parental deprival
orders to be revived without an evidentiary hearing.
Judge Zayner further cancelled evidentiary hearing
and continued withholding child custody return to
SHAO for many years.
Only until July 2013, then Zayner assigned
the custody trial to Judge Patricia Lucas.
Unknown to SHAO, both of them were dosely
related to Michael Reedy via the Ingram Inn, and
James McManis has been the attorney of Santa
Clara County Corn! and worked for the court for
manyyearsasaSpedalMaster(App.l07). More
than 3 months after the trial, Judge Lucas issued
the 11/4/2013’s order to continue parental deprival
based on a twisted theory that there was no

25

substantial changes of circumstances from August
4, 2010 the initial parental deprival that may
justify change from Davila’s parental deprival
orders. Shao filed an appeal with the case number
of H040395.
This appeal(H040977) came up about 6
months later the custody appeal. For both
appeals, Santa Clara County Court refused to
prepare the records on appeal for more than 3
years.
In late November 2015, regarding the
malpractice lawsuit Shao filed against McManis,
112CV220571,McManis filed about 13 motions in
limine all asked to apply collateral estoppel based
on J udge Lucas’s custody order. The trial judge
denied all as the Lucas’s order was pending appeal
in H040395. McManis’s attorney stayed the jiny
trial by alleging that the child custody appeal
should be dismissed for lack of prosecution. On
March 11,2016, McManis’s attorney mentioned
again about dismissal of H040395. Within a day,
on Saturday, March 12, 2016, Santa Clara County
Court specifically arranged the derk at the
Appellate Unit to issue two false notices in order to
dismiss both H040395 and H040977. As the first
thing in the morning, in violation of Rule 8.54, both

26

appeals were dismissed by prior Presiding Justice
Conrad Rushing based on the Saturday fraudulent
notices that were made without any prior notice to
SHAO. Upon exposure of the fraudulent
conspiracy between McManis law firm, Rushing
and Santa Clara County Court about the lengthy
parental deprival of SHAO (App. 118,^31), Rushing
vacated dismissal and reactivated both appeals.
10 months later, the conspiracy was
re-played based on non-existent false notices that
were shown on the dockets of H040395 and
H040977 on Feb. 27,2017. Rushing retired and
Davila’s wife J ustice Maiy J. Greenwood became
the Presiding Justice of the Sixth District Court of
Appeal in May 2018. Greenwood dismissed
H045501, H045502 in April 2018 and HO40395 in
May 2018, without any notice to Shao. At the time
of dismissal of H040395, the trial court had not
prepared the records on appeal.(PWC18-569)
After Shao filed with the US Supreme Court a
Petition for Writ of Certiorari (18-560), Santa Clara
County Court then eventually started prepared the
records on appeal, after 3 years’ delay.
Yet, the trial court purposely omitted from
the records on appeal all filings made by SHAO,
including SHAO’s Objection and Opposition to

27

Wang’s Declaration. Such omission was willful as
the Court was requested extensions of SHAO’s
Opening Brief based on lack of complete records on
appeal, the court denied SHAO’s Objection to
incomplete records on appeal filed on 10/30/2018 six
months after filing, lured SHAO to file a motion to
augment records and further denied it.
However, the June 4, 2010’s Judgment
misrepresented that the whole record was reviewed
by the Sixth District Court of Appeal .(App.74
“Moreover, we have reviewed the entire records”)
and even dted the missing records of “Opposition”
and “Objection” filed by SHAO as if they had
reviewed when they specifically had excluded such
records in violation of Rule 8.124(g). See
App.64,first paragraph.
Based on lack of material records on appeal
willfully exduded by the courts, SHAO filed the
Opening Brief on June 6, 2018. These facts were all
omitted from the J une 4, 2010’s J udgment.
Each of Zayner, Lucas, Santa Clara County
Court and the Sixth District Court of Appeal denied
recusal and avoid making dedsion on the merits
about the relationship between McManis and the
courts.McManis Faulkner and its attorneys are
appearing in front of their own dients, Santa Clara

28

County Superior Cotut of California and the Sixth
District without disclosing the direct conflict of
interest.(MJN)
Expert witness Meera Fox, Esq. provides
declaration on the intertwined situation of the two
appeals. (MJN in H040977)
Notably, in June of 2015, McManis procured
from his client, Santa Clara County Court, an order
to declare Petitioner as a vexatious litigant and a
prefiling Order with the later not even supported by
an opinion of the trial court and not shown on the
docket until about August 15, 2017. According to a
court’s derk, it was not entered by any employee of
the court but a "contractor.” Yet, the docket entry
was inserted after the Dedsion of June 16, 2015 to
appear like it was entered into the docket at that
time.
According to the trial court (Hon. Derek
Woodhouse), Judge Zayner who was later moved to
the dvil court, illegally brought all court files of
112CV220571 into his chamber silently and
removed the original deposition transcripts of
James McManis and Michael Reedy from the court
files of 112CV220571 on June 20 2016.
Within days of issuance of the original order
that did not mention prefiling order, the vexatious

29

litigant order (not prefiling order) was used by
Judge Joshua Weinstein to deter filing in the
underly family court case of 105FL126882 to block
SHAO from deposing Respondent. Then, sensing
the need to have prefiling order, it was backdated
filing to be on June 16, 2015 but was not supported
by a decision at all.
At that time Judge Lucas was Assistant
Presiding Judge of Santa Clara County Court and
the Presiding Judge was Rise Pichon. On4/29/2016,
without any notice nor motion, Judge J oshua
Weinstein “cancelled” and “defiled” all Requests for
Order filed by SHAO, including a motion to change
venue, without any proof of service of such an order,
either.
Afterwards, regarding the cancelled 4 motions,
the docket of 105FL126882 was altered to change
names of hearing officer for these motions from
Weinstein to J udge Maiy Ann Grilli.
On 5/29/2016, contrary to her prior instruction,
Pichon issued an Order (H040395,
20170607PR_MJN_P 112-4) requiring Petitioner to
seek preapproval of the Presiding Judge before
filing a motion in 105FL126882, despite being fully
awarethat such order violated Shalant v. Girardi
(2011) 51 Cal .4th 116.

30

Petitioner’s expert for trial of 112CV220571,
Meera Fox, Esq., provided two declarations (MJN,
H040977) attested to existence of conspiracies of
parental deprival (App.75,c]I31) and the continuous
conspiracy in the February 27, 2017’s “more
felonious tampering with court records”
(App.76,^[32) by a false entry of docket of a ‘filed”
“Default Notice of February 24,2017” which in fact
did not exist. Such fraudulent notices and
dismissals took pla:ce to both H040395 (child
custody appeal) and this appeal(App.85).
Ms. Fox also provide testimony about actual
prejudice and bias of Sixth Appellate Court of
Appeal’s Appellate Panel that took place on
4/27/2017’s oral argument in a related appeal of
H039823 where Presiding Justice Conrade
Rushing’s snickered, nearly seething, threats and
Justice Elia “bizzare” questions and improper
comments of “fantacy and fiction” in her declaration
made on April 30, 2017. (MJNJN-1)
The docket of H040395was altered to remove
the May 10, 2017’s filing of Ms. Fox’s
declaration.(MJNrTN-1)
The notorious fraudulent dismissal of
H040395 and HCM0977 on March 14, 2016 exposed
the fact that such bizarre lengthy parental deprival

31

is caused by judicial corruptions as manipulated by
McManis Faulkner.
Ms. Meera Fox testified that
‘These falsified and groundless notices of
non compliance must have been created as
a favor to McManis Faulkner, who needed
the appeal dismissed in order to be able to
assert their collateral estoppel defense in
the malpractice trial of Shao v. McManis
Faulkner.” (App. 124,*524)
Such prompt dismissals made by Presiding Justice
Rushing were ‘illegal” as entered without any prior
notice nor any motion to dismiss pending, as is
required by Rule 8.57(a) of the California Rules of
Court. (App. 117,*528)
The proximity of time sequence of the events
suggested that such dismissal was not
coincidentally made, especially when such dismissal
was illegal per se. Ms. Fox dedared a public view
of conspiracy was in existence among Santa Clara
County Superior Court, Presiding Justice Rushing
and Respondents.(App. 118-9,^[31):
‘There is no other explanation for why R.
Delgado would go in to work on a Saturday
specifically for the sole purpose of creating
false perjured documents to effect the

32

specific relief required by McManis
Faulkner to assert their collateral estoppel
defense. There is no other explanation for
why J ustice Rushing would be expecting
the falsified notices to arrive first thing
that Monday morning and to explain how
he had the appeals dismissed within 25
minutes of their receipt. There is no other
explanation for why a presiding judge
would be willing to violate an appellant’s
due process rights by summarily
dismissing her appeals without anyone
filing a motion to dismiss and without
providing her any notice, in direct violation
of the rules of court.”
f. The Sixth District severely prejudiced
SHAO’s rights to appeal
In violation of Rule 8.57 on 9/26/2016, the Sixth
District dismissed H043851 based a false notice of
the trial court and dismissed H042603 (modification
of child custody based on WANG’s dangerous
mental disorder) based on lack of civil cover sheet;
on March 14, 2016, dismissed both H040395 and
this appeal.
In addition, the Sixth District dismissed
H037820’s custody appeal on 5/21/2014 with a new

33

issue not discussed at oral argument in violation of
Government Code, without giving chance of
rebuttal.
Justice Patricia Bamattre-Manouldan, without
disclosing her relationship with Reedy, also
summarily denied SHAO’s Petition for Writ of
Habeas Corpus twice, one in 2011 in H037833, and
another on 4/13/2015 regarding WANG’s dangerous
mental illness in H042166.
In or about May 2017, Presiding Justice Maiy
J. Greenwood took over and dismissed the appeals
of H0455Q1, H045502. A series of appeals were
dismissed with the same scheme of fraudulent
notices in 2018 (PWC18-344, 18-569,18-800). Now
with this last one of H040977 pending with the
Sixth District Court, the court issued an illegal
10-days’ waiver of oral argument notice and ordered
submission before the full 10 days were passed.
Likewise, this appeal was denied with all
irregularities stated above.
g. File alterations were done as a
conspiracy between the hacker, James
McManis, Santa Clara County Court and
Sixth District Appellate Court
On June 19, 2019, SHAO filed Petition for
Rehearing. In creating the bundle on the old site

34 .

ofTruefiling.com, SHAO created of a new contact
for Santa Clara County Court based on notices from
the Sixth District in H040977. SHAO then
discovered that the email notices issued from the
Sixth District Court that she attached to the
Petition for Rehearing as AttachmentOl and 04
were altered both in the court’s record of Petition for
Rehearing as well as in the Sixth District’s prior
emails sent to her email address of
attomevshao@aol.com. The alteration was to
remove Santa Clara County Court’s email of
sccappeals@scscomt.org from the Sixth District’s
own truefiling notices issued in the past.
Interesting enough, these emails for recipients of
service were then completely removed from the new
notice of acceptance of filing of the Petition for
Rehearing on June 19, 2019. (App.40) While the
hacker removed the Santa Clara County Court’s
email ofscmppeals@scscomt.org from some email
notices of the Sixth District Court of Appeal, the
June 4, 2019’s email was missed from alteration
and retained as evidence of such
alterations.(App.42)
On June 25, 2019, SHAO filed a Notice of
Errata about the alteration of the records.
Immediately after filing, when SHAO tried to

35

download the submitted Notice of Errata just filed
from the court’s site, the court’s site showed that
the file “could not be saved. The volume for a file
has been externally altered so that the opened file is
no longer valid.” (Petition for
Review,Attachment01.)
h. repeated dismissal of appeals in
violation of due process by ex-Presiding
Judge Conrad Rushing in violation of
Rule 8.57 (requiring noticed motion
before dismissal)
The Sixth District Appellate Court has repeatedly
dismissed appeals without notice in the past 3
years, including dismissing H040395 and H040977
(this appeal) on March 14, 2016, dismissing
H0426Q3 (challenging denial of change of child
custody based on discovery of Respondent’s severe
and dangerous mental disease) on 9/25/2016
without notice, dismissing H043851 based on false
Notice of Non-compliance on 9/26/2016, blocking
appeal on H043665, dismissing H045501 and
H045502 without notice on 3/16/2018, dismissing
H040395 again on 5/10/2018 by concealing notice
and dismissing H042531 on July 10, 2018. All
these violated Rule 8.57 of California Rules of
Court.

36

i. Joint conspiracies of California courts
to block SHAO’s anneal by deterring
records on appeal
As of the time of dismissal of the child custody
appeal, for about 4 years, Santa Clara County Court
has not prepared a page of records on appeal but
fraudulently dismissed the appeal with false
accusation.(18-569) For this appeal, when
eventually prepared after 3 years without records
on appeal, the courts jointly blocked complete
records on appeal.
j. All three levels of California courts as
well as this Supreme Court avoid
deciding on the merits of recusal
requests.
SHAO filed Petition for Writ of Certiorari No.
18-344 challenging Judge Folan’s last order
avoiding deriding on the merits about SHAO’s
motion to change venue based on the conflicts of
interest. No courts are willing to respond to any of
the more than a dozen motions for change venues.
REASONS FOR GRANTING CERTIORARI:
RULE 10 (B) AND (C)

37

A.

EXCEPTIONAL CIRCUMSTANES
OF EGREGIOUS DUE PROCESS
VIOLATION
L No qualified Justice and lack of fair
tribunal mandates reversal of June 4.
2019’s Judgment
In Tumev v. Ohio (1927) 273 US 510, the U.S.
Supreme Court held that an order or judgment
made by an unfair tribunal must be reversed and
remanded regardless of the contents of that
judgment or order, as this is a structural error of
due process.
The interests of justice require
disqualification of a judge in order to prevent the
power to punish held by the judge from becoming an
“instrument of oppression”. DeGeorge v. Superior
Court (1974) 40Cal.App.3d 305, 312.
When there is no qualified Justice, the
purported decision is void and California Supreme
Court may take the cause over. See, 13 Witkin
Cal.Proc.Appeals §917; Knouse v. Nimocks (1937) 8
C.2d 482, 66 P.2d 438; Scott v. Kenyon (1940) 16
C.2d 197, 105 P.2d 291
Here, the justice wrote the June 4, 2019’s
Judgment is unidentifiable. Mary J. Greenwood
failed to disclose her conflicts of interest. Moreover,

38

California Supreme Court’s Chief Justice also has
regular social relationship with James McManis
and Michael Reedy through the American Inns of
Court and also failed to disclose the conflicts of
interest. McManis is a leading attorney of American
Inns of Court.(App.l63) Reedy was a speaker for
American Inns of Court(App.l70) and now the
President of the William A. Ingram American Inn of
Court of the American Inns of Court. Judge Zayner
is now the President Elect of the Ingram Inn.
Reversal is thus mandated.
2. Justices. Judges that are or were
represented by the interested third
parties should be required to disclose
such relationship and should all be
disqualified and the case should be
removed away from Santa Clara County
Court and Sixth District Court of Appeal
Where a judge has been represented by attorneys or
law firms appearing before the
judge,disqualification is required under the
objective standard of the appearance of bias
unless other facts dispel that appearance of bias.
Smith v. Sikorsky AircrafUC.D. Cal. 1976) 420 F.
Supp. 661, 662; Powell v. Anderson (Min. 2003) 660
N.W.2d 107, 116-119.

39

In Smith, the judge disqualified himself from
hearing a case involving his own attorney as a party
because the attorney’s prior representation of
the judge in both a personal and judicial capacity.
The Court rested its decision squarely on the
objective standard that since one party was the
judge’s own counselor, the judge’s “impartiality
might reasonably be questioned.”
In Powell, the Minnesota Supreme Court
adopted an objective disqualification standard and
applied a four-factor test: (1) The extent of the
attorney-client relationship, (2) the nature of the
relationship, (3) the frequency, volume and quality
of the contacts with the attorney or law firm, and (4)
any special circumstances “that might either
enhance or limit (1) the importance of the attorney
or firm to the judge and/or (2) the appearance of
impropriety to the public.” 660 N.W.2d at 118.
In Giometti v. Etienne (1934) 219 Cal.687, this
Court held that “without express
legislative exception, appellate judges must be
deemed subject to the same rules applicable to
judges personably.”
Here, the McManis Faulkner law firm as attorney
for Santa Clara County Court and unidentified
judges/justices has appeared as a defendant before

40

the Santa Clara County Court and the Sixth District
Appellate Court.
Presiding Justice Mary J. Greenwood and
almost all Justice at the Sixth District Court of
Appeal were employed by Santa Clara County, who
are therefore at least a client of James McManis as
being an attorney for Santa Clara County Court. All
judges at the Santa Clara County Court have
attorney client relationship with James McManis as
they are employee of Santa Clara County Court who
is the client of James McManis.
James McManis testified that there was a
Justice at California Supreme Court being his
client.
As testified by Meera Fox, Esq., the courts were
working against SHAO hard on her family court
case for the benefit of James McManis, Michael
Reedy and McManis Faulkner, LLP. This
extraordinary situation mandates the orders made
by Santa Clara County Court to be vacated.

41

3. Judges who are members of the William
A. Ingram American Inn of Court Should
be Required as a matter of due process
to disclose their social relationship with
lawyers who are members of the Inns of
Court and Who are Appearing Before
These Judges
This issue is very important as almost all courts
have judges who are members of an American Inn
of Court. Based on a review of the testimony of
Michael Reedy, President of the William A. Ingram
American Inn of Court, the social networking
function presents potential ethical concerns
threatening the integrity of the courts, which may
be in direct contravention of Rule 5-300 of
California Rules of Professional Conduct, which
establishes in Subdivisions (A) that “A member
shall not directly or indirectly give or lend
anything of value to a judge, official, or employee of
a tribunal” and in (B) that an attorney shall not
directly or indirectly communicate privately with a
judge or its employee that has the power to
recommend a decision.
The social association through the Inns of Court
presents potential conflicts of interest. For example,
there were at least 14 times of year for meal time

42

between Reedy and Judge Zayner and J udge Lucas
who issued parental deprival of SHAO for years.
Whether or not requiring disqualification in all
cases, due process requires this association must be
disclosed where a fellow member is a party or
interested party appearing before the judges who
are members of the Inn. Only with such disclosure
can litigants determine if the risk of bias exists and
seek disqualification.
In Wechsler v. Superior Court (2014) 222
Cal App.4th 384, the Court held that mere an
officiant for a wedding requires disclosure but no
disqualification and implied that disqualification is
required for personal or social relationship with the
attorney. The Court stated that "Following Carter,
we conclude that when a judge has no personal or
social relationship with the attorney and the judge's
only role at the
wedding is that of an officiant, disclosure is
required (Cal. Code Jud. Ethics, canon 3(E)(2)(a))."
Idat P.387.
Nevertheless, the above holding in Wechsler
suggests that if there is social relationship between
the judge and the attorney, disqualification is
actually required.

43

In State v. Putnam (1996) 164Vt. 558, the
Vermont Supreme Court required disqualification
of an Administrative Judge for failure to disclose
“social relationship with a party” and reversed the
judge’s decision. See also, Richard v. Richard, 146
Vt. 286, 288, 501 A.2d 1190,1191 (1985)
In Inquiry Concerning Harris 2005) 49 Cal .4th
CJP Supp. 61, the court considered the failure to
disclose a social relationship he had with an
attorney appearing before him.
Clearly, McManis,Reedy and their firm have
used their significant influence over the judges they
are closely socialized for many years on the Inn of
Court social scene to stall and predetermine all
SHAO’s suits since the date Reedy first committed
malpractice by agreeing with the court not to follow
his client’s express directions to expose the court’s
illegal ex parte removal of custody, and have its
illegal orders overturn.
Such influence has gone extreme as it caused the
court to commit crimes in altering the court’s
dockets and notices, which should constitute the
court’s records according to California Government
Code in violation of California Government Code
§68150, 68151(a)(1), 68151(a)(3), and 68152
(App.8-10), California Government Code §6200, and

44

Penal Code Sections §96.5, §182, §115, §132, §134,
§470. (App. 19-20) Such irregularities has repeatedly
took place for years which were discussed in each
and every Petitions filed with this Court. Eg., 17-82,
17-256,17-613,18-344,18-569,18-800 and this
Petition.
With large numbers of members of this private
dub throughout the U.S., Judges who are members
of the Inns of Court should be required to disdose
their sodal relationship with the attorney-members
who are appearing in front of them, to satisfy the
due process.
4. Writ is necessary as there is important
novel issue of whether the entire court
should be disqualified when Presiding
Judge or Justice or any Justices/Judges
were involved with conflicts of interest
and may extend applicability of recusal
to appellate court.
A Presiding Justice’s conflicts of interest should
justify recusal of the entire court, since that
Presiding Justice has enormous influence over his
entire court. In Williams v. Pennsylvania (2016)
136 S.Ct. 1899, when the involved Justice was
Pennsylvania’s Chief Justice, the entire court was

45

disqualificed. See also, Liljeberg v. Health Servs.
Acquisition Corp. (1988) 486 U.S. 847
In U.S. v. Jordan (1995) 49 F.3d 152, Ft.
18, the 5th Circuit’s majority stated in Footnote 18
that:
“The public may not look favorably upon a
system that allows one colleague to pass on
the impartiality of another colleague who
works closely with the questioned judge. As
discussed supra, judges sitting in review of
other judges do not like to cast aspersions,
especially upon colleagues in the same district
with whom they work so intimately and confer
so frequently.”
C.C.P. §397(b) authorizes a change of venue to
ensure litigants an impartial trial.
Such change of venue may be expanded to
include any judges or justices that have direct
conflicts of interest. New York State cases require
changing venue to avoid impropriety when a judge
has conflict of interests. See, e.g., Amann v. Caccese
(1996) 223 A.D.2d 663, 637 N.Y.S.2d 217 [the
plaintiff was the daughter of the Court of Claims
Judge/Acting Supreme Court Justice], Rothwax v.
Snicehandler (1990) 161 A.D.2d 184, 554 N.Y.S.2d
882 [the plaintiff was a Supreme Court Justice]),

46

Milazzo v. Long Is. Light. Co. (1984) 106 A.D.2d
495, 483 N.Y.S.2d 33, [the plaintiff was a law
secretary to two Justices where the action
commenced]) or Burstein v. Greene (1978) 61
A.D.2d 827, 402 N.Y.S.2d 227 [the plaintiff was the
spouse of a Supreme Court Justice]).
Federal Judiciary Policy 3-3.6 (App.2)
authorizes removal of an entire district when a
judge is sued.
Moreover, such change of venue should include
the appellate court level. 28 USCS §455(b)
provides that in appropriate circumstances a
litigant may move to disqualify the individual
appellate judge, or all levels of appellate judges, or
an entire court See, Pilla v. American Bar
Association (1976) 542 F.2d 56.
5. INCOMPLETE RECORDS ON APPEAL
CONSTITUTE STRUCTURAL ERROR
IN VIOLATION OF DUE PROCESS
THAT MANDATES REVERSAL OF THE
JUDGMENT.
California Supreme Court has held that the due
process and equal protection clause of the
Fourteenth Amendment of the Constitution
requires the states to provide sufficient records for

47

adequate and efficient review and points to be
argued. E.g., People v. Rogers (2006) 39 Cal.4th 826,
857-858.
This affects right to access the courts. The
right to appeal and the right to have access to
the courts are fundamental rights under the
First Amendment which must be protected.
Guamieri, 131S. Ct. at 2494; Primus, 436U.S.
at 426; Addleman, 139 Wn.2d at 753-54.
Structural error indudes deterrence of right to
appeal. See, Locada v. Deeds (1991) 498 US 430.
overruled on other grounds by Roe v. Flores-Ortega
(2000) 528 US 470.
It is especially important in family court case.
In Robinson v. Robinson, 2017-0hio-450 (Court of
Appeals of Ohio, Fourth Appellate District, Meigs
County, released on 1/31/2017), the court held that
the right to access the court for divorce proceedings
was a substantial right that the United States
Constitution entitled a person to enforce or protect.
Here, the three documents that are missing are all
essential. The first minutes order will be able to
show that a Remittitur requiring new facts finding
requires a trial and Judge Zayner has unreasonably
canceled the trial setting and refused to hold a
hearing to allow examination and oral examination,

48

especially when Appellant contests that
Respondent’s Counsel ignored and never produced
to her legible copies of their written submission as
contained in Respondent’s Declaration and that
many requests for reimbursement are either
unreasonable, getting double benefits, or irrelevant.
(R.181-205)
As mentioned above, the Opposition and
Objection to Declaration of Tsan-Kuen Wang are all
that Petitioner filed in response to the Remittitur
that are crucial records for an Opening Brief as
Petitioner is not allowed to dte facts outside of the
records on appeal.
The facts stated in this Petition established the
willfulness of the Sixth District Appellate Court’s
knowing deterring appeal to be meaningful. Thus,
the resulting Order should be reversed.
6. Certiorari should be issued to direct the
Sixth Appellate Court to cease its illegal
practice in issuing the 10-dav oral
argument waiver notice
As mentioned above, the 10-day oral argument
waiver invitation notice was not what was stated in
Rule 8,256, but had been declared to be void and
violation of due process 15 years ago by California

49

Supreme Court in People v. Pena, 32 Cal.4h 389
(2001).
Yet, California Sixth District Court of Appeal and
the Supreme Court disregarded such illegal
practice. Therefore, a writ is necessary to cease
the illegal practice.
7. Significant substantive due process
property rights are prejudiced that
require a writ be issued
A parent’s interest in support in arrearages owed is
not just statutory but the judgment is a vested
property right protected by the
California Constitution. In re Marriage of Comer,
14 Cal.4th at p.541, 50 Cal.Rptr.2d 155.
The public policy of California disallowed child
support to be below the guideline support when the
child support agency was not involved in the child
support stipulation. Any such order violates due
process and is void. California Family Code §4065(c).
The dear bias and prejudice of the courts have
repeatedly ignored such substantive due process
that involves the property interest of Petitioner and
has refused to rule on her motion to modify support
since September 2009when the child support was
at least $3000 below child support guideline.
Father only paid $600 a month up to 2013 which

50

caused finandal difficulty of Petitioner when the
guideline support should be at least $5,000 a month
before May 2013 when the son reached majority.
The involved prejudice on property loss to
Petitioner on support in arrears was estimated at
least $150,000.
The courts further unreasonably disregarded
the return of the undertaking of $10,000.
(App.173-74) when the remittitur was issued in
J anuary 2012, 7 years ago. The integrity of the
courts should not tolerate robbery of the court.
CONCLUSION
For the foregoing reasons, Petitioners
request that certiorari be issued.
VERIFICATION
I swear under penalty of perjury under the
law of the U.S. that the foregoing is true and
accurate to the best of my knowledge and made in
good faith.
Dated: November 11, 2019
Respectfully submitted,

Is/ Yi Tai Shao
Yi Tai Shao

